Duran Kelle
Keller Law LLP
8 N Third St, Ste 403
Lafayette, IN 47901
duran@kellerlawllp.com
(765) 444-9202
Attorney for Respondent Nichole Richards
Robert E. Duff
Indiana Consumer Law Center
P.O. Box 7251
Fishers, IN 46037
robert@robertdufflaw.com
(800) 817-0461
Attorney for Respondent Nichole Richards
Adina H. Rosenbaum
Public Citizen Litigation Group
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
arosenbaum@citizen.org
Attorney for Respondent Nichole Richards

